Audit Report 14-04:  Independent Auditors’ Report on the SBA’s FY 2013 Financial Statements | The U.S. Small Business Administration | SBA.gov
Skip to main content
Jump to Main Content
An Official Website of the United States Government
Translate
LoginSBA LoginUsing valid employee GLS loginRegister
Search form
Search SBA
Contact SBA
Contacto (en español)
Newsroom
Community
For Lenders
Email Updates
Blogs
SBA.gov » Office of Inspector General » Audit Reports by Program Area or Topic » Agency Management » Audit Report 14-04:  Independent Auditors’ Report on the SBA’s FY 2013 Financial Statements
Inspector General
About Us
OIG Directory
NewsroomEmail Alerts
Press Releases
Recent Investigative & Audit Actions
Congressional Testimony
Top Management Challenges
Semi-Annual Reports to Congress
Hotline
Whistleblower Protection
Searchable List of OIG Reports
Audit Reports by Program Area or TopicBusiness Loans and Lender Oversight
Disaster Loans
Surety Bonds
SBICs
Government Contracting and Business Development
Entrepreneurial Development
Agency Management
External Quality Control Reviews of the OIG
Recovery OversightActivities
Plans
Reports
OIG Reports Audit Report 14-04:  Independent Auditors’ Report on the SBA’s FY 2013 Financial Statements
Date Issued:
Monday, December 16, 2013
Report Number:
14-04
On December 16, 2013, the OIG issued Audit Report 14-04, Independent Auditors’ Report on the SBA’s FY 2013 Financial Statements.   The OIG contracted with an independent public accounting firm to audit the Small Business Administration’s (SBA) consolidated financial statements as of September 30, 2013, and 2012, and for the years then ended.  The contract required that the audits be conducted in accordance with Generally Accepted Government Auditing Standards; the Office of Management and Budget Bulletin No.14-02, Audit Requirements for Federal Financial Statements; and the U.S. Government Accountability Office’s Financial Audit Manual and Federal Information System Controls Audit Manual.  This audit is an annual requirement of the Chief Financial Officers Act of 1990.
The auditor’s report includes an opinion on SBA’s financial statements, internal control over financial reporting, and compliance and other matters that have a direct and material effect on the financial statements. The auditor issued an unmodified opinion on SBA’s fiscal year 2013 consolidated financial statements. In summary, the auditor found that:
The financial statements were fairly presented, in all material aspects, in conformity with U.S. generally accepted accounting principles.
There were no material weaknesses in internal control.
There is a significant deficiency related to SBA’s information technology security controls, which is a repeat condition.
There is one instance of noncompliance with laws and regulations related to the Debt Collection Improvement Act of 1996, which is also a repeat condition.
Details regarding the auditor’s conclusions are included in the “Compliance and Other Matters” section, and Exhibit I of the Independent Auditors’ Report. Within 30 days of this report, the auditor expects to issue a separate letter to management regarding other less significant matters that came to its attention during the audit.
Log in or register to post comments
Leadership
Peggy E. Gustafson
Inspector General
Peggy E. (Peg) Gustafson was sworn in as SBA Inspector General on October 2, 2009. Ms. Gustafson previously served as General Counsel to Senator Claire McCaskill (D-MO), where she advised the...
1 of 2
next ›
GET EMAIL UPDATES
In Partnership with Business USA
Aid, counsel, assist and protect, insofar as is
possible, the interests of small business concerns.
Sign up for e-mail updates.
Customer Service
About SBA
Contact SBA
Contacto (en español)
Media and Press Relations
SBA Locations
SBA Team
About SBA.gov
Site Map
Privacy Policy
Linking Policy
Accessibility
Disclaimers
Social Media
Data Store
SBA Information
Freedom of Information Act
No Fear Act
Report Fraud, Waste, and Abuse
Initiatives
Plain Language
SBA Performance
Strategic Planning
Performance and Budget
Open Government
Policy and Regulations
Eliminating Fraud, Waste and Abuse
Advocacy & Oversight
Inspector General
Advocacy
Hearings and Appeals
Ombudsman
Tools and Features
Online Training
Create a Business Plan
Find Events
Qualify for Government Contracts
Analyze Your Business
SBA Partners
WhiteHouse.gov
USA.gov
Regulations.gov
BusinessUSA.gov